Case: 18-60273

Document: 00515358399

Page: 1

Date Filed: 03/25/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 18-60273 r
Summary Calendar

FILED
March 25, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
JUDY HARMON,
Defendant-Appellant

Appeal from the United States District Court
for the Northern District of Mississippi
USDC No. l:16-CR-38-10

Before WIENER, COSTA, and ENGELHARDT, Circuit Judges.
PER CURIAM:*
Defendant-Appellant Judy Harmon appeals her sentence for conspiracy
to possess methamphetamine with intent to distribute. Harmon raises two
issues on appeal. She first complains that the district court procedurally erred
in holding her accountable for 60 pounds of methamphetamine, contending
that the trial testimony regarding drug quantity was inconsistent with
notations m ledgers kept by her co-conspirators to track her drug purchases.

* Pursuant to 5TH Cffi. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

1

Case: 18-60273

Document: 00515358399

Page: 2

Date Filed: 03/25/2020

No. 18-60273
She expressly contends that the district court did not sufficiently scrutinize the
testimony and the ledgers and failed to provide a rationale for accepting the
testimony over the ledgers.
Harmon does not dispute the Government’s assertion that the ledgers
cover only a portion of her nearly year-long involvement in the drug conspiracy.
Her co-conspirator, Gerardo Lima, testified that the notations in a ledger
detailing Harmon’s activity during a single month were a low representation
of the amount of drugs that she generally obtained from him and sold to her
customers. The ledgers are not inconsistent with Lima s testimony that he
generally provided Harmon with nearly 10 pounds of methamphetamine a
month for almost a year.

Lima’s testimony as to the amount of drugs he

supplied to Harmon was consistent with the testimony of Harmon’s customers
regarding the quantities they purchased. In light of the record as a whole, the
district court’s factual finding of 60 pounds was plausible and does not amount
to clear error. See United States v. Betancourt, 422 F.3d 240, 246 (5th Cir.
2005).
Next, Harmon insists - for the first time on appeal - that, contrary to
Federal Rule of Criminal Procedure 32, the Due Process Clause, and U.S.S.G.
§ 6A1.3, p.s., the district court erred in failing to provide her with notice of its
intention to rely at sentencing on evidence outside the record. She complains
specifically of the court’s consideration of Lima’s testimony from the sentencing
hearing of another co-conspirator, Thomas Scruggs, in making its factual
finding of drug quantity.
Notwithstanding the absence of notice, the offense conduct contained in
Harmon’s presentence report, which was based on Lima’s testimony at
Harmon’s trial, sufficiently supports a drug quantity finding of 60 pounds and
a resulting offense level of 36. Harmon “ha[d] actual knowledge of the facts on

2

Case: 18-60273

Document: 00515358399

Page: 3

Date Filed: 03/25/2020

No. 18-60273
which the district court base[d]” her offense level assessment, so she has failed
to show that the district court committed clear or obvious error. United States
v. Garcia, 797 F.3d 320, 323 (5th Cir. 2015) (internal quotation marks and
citation omitted). Even if the court had plainly erred, Harmon cannot show a
reasonable probability that, but for any error, she would have received a lower
sentence. See United States v. Davis, 602 F.3d 643, 647 (5th Cir. 2010). She
thus cannot show an impact on her substantial rights. See id.
AFFIRMED.

3

Case: l:16-cr-00038-SA-DAS Doc #: 368 Filed: 04/03/18 1 of 7 PagelD #: 2357
AO 2-15 B

(Rev. I 1/16) Judgmi'M in a Criminal Case
Shed }

United States District Court
Northern District of Mississippi
)
JUDGMENT IN A CRIMINAL CASE
UNTI ED STATES OF AMERICA
)
v.
)
)
0537 EI6CR00038-0I0
Case Number:
Judy Harmon
)
)
17940-042
USM Number:
)
)
Kristian Alicia McCray
Defendant's Attorney

THE DEFENDANT:
□ pleaded guilty to cotint(s)

______

□ pleaded nolo contendere to count(s)
which was accepted by the court.
El was found guilty on count(s)
after a plea of not guilty.

I of the Superseding Indictment

The defendant is adjudicated guilty of these offenses:
Title & .Section

Nature of Offense

Offense Ended

21 U.S.C. §§ 841(a)(1).
841(b)(1)(C), and 846

Conspiracy to Possess with Intent to Distribute
Methamphetamine

04/30/2016

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.

7

Count
I

of this judgment. The sentence is imposed pursuant to

□ The defendant has been found not guilty on count(s)
□ Count

I of the Indictment

is dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered
to pay restitution, the defendant must notify the court and United States attorney of material changes in economic circumstances.
March 28, 2018
Date of Imposition of Judgment

7

A

.SignatureJudge

Sliarion Avcock. Chief U.S. District Judge
Name and Title of Judge

Date

Dpu'J A 3?#//

Case: l:16-cr-00038-SA-DAS Doc #: 368 Filed: 04/03/18 2 of 7 PagelD #: 2358
AO 245B
*

(Rev. 11/16) Judgment in Criminal Case
Sheet 2 — Imprisonment
Judgment — Page

DEFENDANT:
CASE NUMBER:

2

Judy Harmon
1:I6CR00038-010

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of:
205 months on Count I of the Superseding Indictment.

□ The court makes the following recommendations to the Bureau of Prisons:

13 The defendant is remanded to the custody of the United States Marshal.
CD The defendant shall surrender to the United States Marshal for this district:
0 at

0 a.m.

0 p.m.

on

0 as notified by the United States Marshal.
0 The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:

D before 2 p.m. on ______ _____________ •
CD as notified by the United States Marshal.
0 as notified by the Probation or Pretrial Services Office.

RETURN
1 have executed this judgment as follows:

Defendant
delivered on
at

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

of

7

Case: l:16-cr-00038-SA-DAS Doc #: 368 Filed: 04/03/18 4 of 7 PagelD #: 2360
AQ245B

— t

-V “

(Rev 11/16) Judgment in a Criminal Case
Sheet 3A — Supervised Release
Judgment—Page

DEFENDANT:
CASE NUMBER:

of

7

Judy Harmon
1:16CR00038-0!0
STANDARD CONDITIONS OF SUPERVISION

1.
2.

3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72
hours of your release from imprisonment, unless the probation officer instructs you to report to a different probation
office or within a different time frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer
about how and when you must report to the probation officer, and you must report to the probation officer as
instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting
permission from the court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about
your living arrangements (such as the people you live with), you must notify the probation officer at least 10 days
before the change. If notifying the probation officer in advance is not possible due to unanticipated circumstances, you
must notify the probation officer within 72 hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the
probation officer to take any items prohibited by the conditions of your supervision that he or she observes in plain
view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer
excuses you from doing so. If you do not have full-time employment you must try to find full-time employment,
unless the probation officer excuses you from doing so. If you plan to change where you work or anything about your
work (such as your position or your job responsibilities), you must notify the probation officer at least 10 days before
the change. If notifying the probation officer at least 10 days in advance is not possible due to unanticipated
circumstances, you must notify the probation officer within 72 hours of becoming aware of a change or expected
change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone
has been convicted of a felony, you must not knowingly communicate or interact with that person without first getting
the permission of the probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e.,
anything that was designed, or was modified for, the specific purpose of causing bodily injury or death to another
person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or
informant without first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation
officer may require you to notify the person about the risk and you must comply with that instruction. The probation
officer may contact the person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written
copy of this judgment containing these conditions. For further information regarding these conditions, see Overview
of Probation and Supervised Release Conditions, available at: www.uscourts.gov.
Defendant’s Signature

Date

Case: l:16-cr-00038-SA-DAS Doc #: 368 Filed: 04/03/18 5 of 7 PagelD #: 2361
*

AO 245B
-if.

(Rev. 11/16) Judgment in a Criminal Case
Sheet 3C — Supervised Release

Judgment—Page

DEFENDANT:
CASE NUMBER:

5

of

7

Judy Harmon
l:16CR00038-010
SPECIAL CONDITIONS OF SUPERVISION

-)

1. The defendant shall participate in a program of mental health treatment, details of which will be outlined and
supervised by the probation officer, until such time as the defendant successfully completes the program or is
deemed by the treatment provider to no longer be in need of treatment.
2. The defendant shall submit her person, property, house, residence, vehicle, papers, computers (as defined in
Title 18, United States Code, Section 1030e(l)), other electronic communications or data storage devices or
media, or office, to a search conducted by the United States Probation Officer. Failure to submit to a search may
be grounds for revocation of release. The defendant shall warn any other occupants that the premises may be
subject to searches pursuant to this condition. An officer may conduct a search pursuant to this condition only
when reasonable suspicion exists that the defendant has violated a condition of his supervision. Any search must
be conducted at a reasonable time and in a reasonable manner.

.J

!

Case: l:16-cr-00038-SA-DAS Doc #: 368 Filed: 04/03/18 7 of 7 PagelD #: 2363
AO 245B
4*

(Rev. 11/16) Judgment in a Criminal Case
Sheet 6 — Schedule of Payments
Judgment — Pace

DEFENDANT:
CASE NUMBER:

7

of

7

Judy Harmon
1:16CR00038-010

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

03 Lump sum payment of $

due immediately, balance due

100

, or

□ not later than
D3 in accordance with

C] C,

O D,

D E, or

B

□ Payment to begin immediately (may be combined with

q

□ Payment in equal

D Payment in equal

□ D, or

□ F below); or
over a period of

(e.g.. 30 or 60 days) after the date of this judgment ; or
over a period of

(e.g.. weekly, monthly, quarterly) installments of S

(e.g.. months or years), to commence
term of supervision; or
E

□ C,

(e.g.. weekly, monthly, quarterly) installments of S

(e.g., months or years), to commence
D

E3 F below; or

(e.g.. 30 or 60days) after release from imprisonment to a

□ Payment during the term of supervised release will commence within

(e.g., 30 or 60 days) after release from

imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or
F

[3 Special instructions regarding the payment of criminal monetary penalties:
* Installment payments made during any period of supervision shall commence 60 days after commencement of the supervision
period and shall be paid as determined by application of the criminal monetary payment schedule adopted by this Court to the
defendant's verified disposable income.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due
during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate Financial
Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
□ Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

□ The defendant shall pay the cost of prosecution.
□ The defendant shall pay the following court cost(s):
E3 The defendant shall forfeit the defendant’s interest in the following property to the United States:
$5,980 in U-S. Currency
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.

APPENDIX A

IN THE UNITED STATE COURT OF APPEALS
FOR THE FIFTH CIRCUIT
18-60273
UNITED STATES OF AMERICA

PLAINTIFF-APPELLEE

V.

DEFENDANT-APPELLANT

JUDY HARMON

UNOPPOSED MOTION TO WITHDRAW AS COUNSEL
The undersigned attorney for Judy Harmon respectfully moves this Court to
permit her to withdraw as counsel for appeal purposes in this matter and in support
of said motion would show as follows:
I.
1.

PROCEDURAL HISTORY

The undersigned was appointed to represent Ms. Harmon in the district court

and her appointment was continued on appeal.
2.

Counsel undertook to perfect an appeal and to research and draft an

appropriate brief of appellant.
3.

On March 25, 2020 a panel of this court affirmed the judgment of the district

court by a three page per curiam opinion.
II.
4.

DISCHARE OF OBLIGATIONS

The undersigned promptly provided a copy of said opinion to her client,

Appellant Judy Harmon, with advice of her right to petition for rehearing in the
circuit court and for seeking certiorari in the Supreme Court of the United States.
1

5.

More particularly counsel advised Ms. Harmon that, pursuant to Fed. R. App.

P. 40(a)(1), a motion for rehearing must be fded within fourteen (14) days of entry
of the court’s judgment; and , that any petition for writ of certiorari must be received
by the Supreme Court of the United States within 90 days of the judgment’s entry.
Supreme Court Rule 13(1).
6.

The undersigned further affirms that in addition to having advised her client

in writing of the time limits for seeking rehearing and certiorari as described infra
that consistent with the certificate of services attached hereto, she is providing to her
a copy of this Unopposed Motion to Withdraw as Counsel.
III.
7.

GROUNDS FOR GRANTING MOTION

In light of the rigid standard of Fed. R. App. P. 35(a) counsel cannot,

consistent with her duties to the Court, petition for rehearing of the panel’s opinion
and truthfully make the statement required of her by Fed. R. App. P. 35(b).
8.

Likewise, the Supreme Court in Austin v. United States± 513 U.S. 5, 8 (1994),

contended that counsel would not be obliged to file petitions for certiorari that
would present frivolous claims in violation of Supreme Court rules.
9.

For said reason, in light of the panel’s opinion, counsel would be unable to

petition for certiorari.

2

10.

The undersigned represents she has conferred with Honorable Chad Doleac

of the United States Attorney’s Office for the Northern District who indicated the
government does not oppose the relief sought herein.
IV.
11.

RELIEF SOUGHT

For the above-stated reasons the undersigned asks to be relieved of any

further duty in this appeal and for leave to file her voucher for payment for services
rendered.
RESPECTFULLY SUBMITTED, this the 27th day of March 2020.
/s/Kristian A. McCray
Kristian A. McCray
Attorney for Appellant
12700 Hillcrest Rd., Ste. 125
Dallas, TX 75230
(972)455-8661

3

CERTIFICATE OF SERVICE
I, Kristian A. McCray, do hereby certify that I have caused this day to be
electronically filed the above and foregoing Unopposed Motion to Withdraw as
Counsel using the ECF system and accordingly electronic service will be provided
to Honorable Chad Doleac and Honorable Michael Hallock.
I have also deposited in the U.S. postal service mail a paper copy to Ms. Judy
Harmon # 17940-042, FCI Danbury, Federal Correctional Institution, Route 37,
Danbury, CT 06811.
RESPECTFULLY SUBMITTED, this the 27th day of March, 2020
/s/Kristian A. McCray
Kristian A. McCray
Attorney for Appellant
12700 Hillcrest Rd., Ste. 125
Dallas, TX 75230
(972) 455-8661

4

CERTIFICATE OF COMPLIANCE
1.

This motion complies with the type-volume limitation of Fed. R. App. P.

32(a)(7)(B) as the motion contains 461 words.
2. This motion complies with the typeface requirements of Fed. R. App. P. 32(a)(5)
and the type style requirements of Fed. R. App. P. 32(a)(6) because it has been
prepared in proportionally spaced typeface using Word Version 16.35 in 14 point
Times New Roman.
/s/Kristian A. McCray
Kristian A. McCray
Attorney for Appellant
12700 Hillcrest Rd., Ste. 125
Dallas, TX 75230
(972) 455-8661

5

/

APPENDIX B
."i

APPENDIX

C

CONTENTS

Exhibit 1

Motion for leave to withdraw

Exhibit 2

ORDER (Denying Relief of Counsel.

Demanding counsel to refile on Merits with Attached
unopposed Motion to Withdraw Counsel)
Exhibit 3.

E-MAII.(Defendants concerns with counsels

performance)
Exhibit A

MOTION (pro-se, to relieve counsel

"Conflict of Interest")
Exhibit 5

NOTICE of objection to Defense Attorney

McCray letter dated October 10, 2018)
Exhibit 6

Response to Attorney McCray Anders Brief

Motion to Withdraw as Counsel
Exhibit 7

ORDER (Denying Relief of Counsel (2nd)

DEMAND to Refile Brief on the Merits)
Exhibit 8

Fifth Circuit addressing counsel's non-

compliance with Fed R. App. P. 32(g)(1) and 27(d)(2)(A)
Exhibit 9

Fifth Circuit addressing counsel's

insufficient Brief
Exhibit 10

Fifth Circuit non-compliance with 5th Cir

R. 31.lj ECF Filing Standard E.l
Exhibit 11

Incorrectly filing brief under Civil

Procedure
Exhibit 12

Criminal Minutes - General (Ex parte

Motion Hearings [221 | to withdraw as counsel
Exhibit 13

E-MAIL - Defendants request to counseling

inquiring ex paarte proceeding minutes

/]

Case: l:16-cr-00038-SA-DAS Doc #: 221 Filed: 08/01/17 1 of 2 PagelD #: 513

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF MISSISSIPPI
PLAINTIFF

UNITED STATES OF AMERICA

CAUSE NO.: U16CR38

VS.

DEFENDANT

JUDY HARMON
MOTION FOR LEAVE TO WITHDRAW

COMES NOW the undersigned attorney, and files with this Honorable Court this her
Motion for Leave to Withdraw as counsel of the defendant. In support thereof, would show unto
this Court as follows:
1.

On November 14, 2016, the undersigned attorney was appointed to represent the

defendant, Judy Harmon.
2.

The undersigned counsel has met with Ms. Harmon on multiple occasions to advise client

in preparation for trial.
3.

The trial in this case is set for September 11,2017, Doc #194.

4.

The undersigned attorney has continued to meet with Ms. Harmon to advise and counsel

the defendant in preparation for trial. The Defendant has expressed the desire to take certain
action that counsel has determined she cannot ethically do as an officer of the court and in
compliance with the rules. Counsel undersigned has addressed this matter with the defendant to
no avail.
5.

On July 31,201 7 the undersigned attorney spoke with Ms. Harmon again in attempt to

resolve the matter in an effort to move forward to effectively and to ethically represent the
Defendant. The Defendant stated her desire for undersigned counsel to continue with said action
and expressed her disdain with counsel’s ethical position. The Defendant further expressed that
she believed that undersigned counsel was not representing her best interests.
44

I

[ik>

Case: l:16-cr-00038-SA-DAS Doc #: 221 Filed: 08/01/17 2 of 2 PagelD #: 514

6.

After firm attempts to resolve the issues, the undersigned counsel takes the position that

she cannot provide effective representation to the defendant and fulfill her ethical obligation as
an officer of the court. In accordance with Rule 1.16 of the Mississippi Rules of Professional
Conduct, the undersigned counsel files said motion.
7.

The undersigned counsel respectfully request this Honorable Court to issue an Order

allowing the undersigned counsel to withdraw as counsel for the defendant.

Respectfully submitted this the 1st day of August, 2017.
/s/ Kristian A. McCray
Kristian A. McCray
Mississippi Bar Number 104280
2084 Old Taylor Road, Suite 106
Oxford, Mississippi 38655
Telephone: (662) 507-4304
Facsimile: (888) 869-8848
Email: mskristianm@gmail.com

CERTIFICATE OF SERVICE
COMES NOW the undersigned attorney of record, Kristian A. McCray, and certifies that
she has this day filed the above and foregoing Motion for Leave to Withdraw via the ECF
system, thereby causing a copy to be sent via email to the appropriate parties.
This the lsl day of August, 2017.
/s/ Kristian A. McCray
Kristian A. McCray
Attorney for the Defendant Harmon

Case: 18-60273

Document: 00514835272

Page: 1

Date Filed: 02/14/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-60273

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
JUDY HARMON
Defendant-Appellant

Appeal from the United States District Court
for the Northern District of Mississippi

ORDER:
The attorney appointed to represent Judy Harmon has filed a motion to
withdraw and a brief that relies on Anders u. California, 386 TJ.S. 738 (1967).
Harmon has filed responses and moves to relieve counsel.
The court has reviewed counsel’s brief, Harmon’s responses, and the
record and, with one exception, concurs with counsel’s assessment that the
appeal presents no nonfrivolous issues.

The special search condition of

supervised release set forth in the written judgment includes items that were
not pronounced by the district court at sentencing. Counsel should address
whether there is a conflict between the pronouncement and judgment. See
United States v. Rivas-Estrada, 906 F.3d 346. 350-51 (5th Cir. 2018); United
States v. Mireles, 471 F.3d 551. 557-58 (5th Cir. 2006).
N

Case: 18-60273

Document: 00514835272

Page: 2

Date Filed: 02/14/2019

No. 18-60273
Accordingly, counsel is ORDERED to file within 30 days a supplemental
Anders brief addressing the above issue or, in the alternative, a brief on the
merits addressing any nonfrivolous issues that counsel deems appropriate.
The motion to withdraw is CARRIED with the case. Counsel should move to
withdraw this motion if a merits brief is filed. Harmon’s motion to relieve
counsel is DENIED. See United States v. Wagner, 158 F.3d 901. 902-03 (5th
Cir. 1998).
Is/ James E. Graves, Jr.
JAMES E. GRAVES, JR.
UNITED STATES CIRCUIT JUDGE

2

SUBJECT: Kristian McCray #1
DATE: 09/26/2018 02:51:39.PM
t******************************************************************************************************************* * ***************************

September 26, 2018

JUDY A. HARMON
v.
UNITED STATES OF AMERICA
Case No.: 18-60273
Dear Mrs. Kristian McCray,

i?

I received your letter dated September 10, 2018. In this letter you stated that you could not find
any Non-Frivolous issues that can be raised on my behalf. That is your opinion. I however do not agree with
that opinion. I have made my concerns known to you and request sent to you. You have denied me my
right to review any of my court documents and request.

I ask you in the letter dated July 11, 2018 to send me a copy of the brief to review before it was sent to the
courts. My request was not honored. I also in that same letter ask you to send me documents from the docket.
Can you please read that letter and forward these documents to me? **Please note request made on page 3
f that same letter. As of today have not received any of those documents. I am finding it hard to be pro-active
with no help from my attorney. I am attaching a list of request of documents from the Docket. Can you please
get this information to me?
I ask my daughter to forward you an email in reguards to the letter dated July 11. You stated that you sent
a package to me dated August 6th and it was returned August 29. I have inquired about this package and have not
jceived notification that a package was denied.
I have sent a EMERGENCY PRO SE MOTION - MOTION FOR EXTENSION FOR BRIEF OF APPELLANT/
AND OR PERMISSION TO FILE A SUPPLEMENT BRIEF. I have made known my concerns known to the appeals
court. I understand that you want to be removed from this case. Until that relief is granted; I am asking you to
maintain your duties as my council.

Your help is urgent in this matter.
Thank you,
Judy A. Harmon
ii

exhibit'

3

mm

********************************************************************************************************************‘jjfftr -

J

UNITED STATES COURT OF APPEALS
FOR THE 5TH DISTRICT

!?

No:

18-60273

JUDY A. HARMON
VS.
UNITED STATES OF AMERICA

EMERGENCY PRO SE MOTION TO RELIEF APPOINTED COUNSEL OF HER DUTIES : CONFLICT OF INTEREST

TO THE HONORABLE JUDGES OF THE APPEALS COURT

relieve a
show this Court as follows.

e
STATEMENT OF EVIDENCE
ThP attorney Kristian McCray never supplied to me any of the documentation that !'have
_1. requested throughout my case. I have NEVER received any documentation from Mrs. McCray.

that she had the option to write the jury instructions for review/submit
4. The attorney never told me
to explain the law to the jury in lamin terms.
told me that there could be an option for a special verdict form. I never knew
5. The attorney never
of meth listed in the PSR until the day of sentencing.
anything about the 60 lbs

BEFORE it was filed I have been denied ALL my rights to my court documents.
e
-" therefore'ineffective assistance of counsel.

i

i

J

SUBJECT: USCOA - LETTER RE; KRISTIAN McCRAY
DATE: 10/15/2018 01:14:52 PM
i
Ik************************ ***-***** + ************** + ***************★**************+ + ******** + ********* ********** + ****** + * ************* *********

i

UNITED STATES COURT OF APPEALS
FOR THE 5TH DISTRICT

;

No: 18-60273

S

JUDY A. HARMON

VS
UNITED STATES OF AMERICA
NOTICE OF OBJECTION TO DEFENSE ATTORNEY McCRAY LETTER DATED OCTOBER 10, 2018

TO: MR. LYLE CAYCE
I

COMES NOW Judy A. Harmon, the defendant, PRO SE, and respectfully object to the letter addressed to you,
dated October 10, 2018.
OBJECTION OF STATEMENT(S)

1. REQUESTED DOCUMENT(S): The first request was made while I was incarcerated in Oxford, MS in
December of 2016. I requested a copy of the indictment. I did got receive it. In a letter to Ms McCray
dated July 11,2018. (please see attachment); I requested the court transcript; any and all motions filed
on my behalf.
* Indictment -1 did not receive a copy of the Indictment nor was I made aware of the Superseding
Indictment. I requested a copy of the Search Warrant again was denied.

a

* PSR -1 was shown the Pre Sentence Report on her laptop. I did ask Ms Me Cray if she had a hard
copy; I was told that she didn't have time to print it. I was shown pieces of the PSR. I requested
a hard copy to review it in it's entirety. I was denied my request.
* Any and all motion filed on my behalf througout the case.
* Brief - In the letter that I sent Ms McCray dated July 11,2018; I also requested to receive a copy of
of the brief for review BEFORE it was filed with the court. This request was denied. (Please see
exert of the letter attached.)
2

MAIL (CORRESPONDENCE): Ms McCray was appointed to my case on November 14, 2016. I have only
received 5 letters of correspondence from Me Cray. The first was dated June 28,2018. I only received
this after I brought it to the courts attention; her lack of participation. I did inquire about
mail being returned to Ms McCray and was told there had been none returned. I have repeatedly
told her the manner in which the envelope must be addressed in order for it to be treated at legal mail
by the prison (Please see exert of letter attached). It must be recognized as legal mail, to assure that
I receive it and that it is open in my presence.

£*h»foiV
S'

I

il

SUBJECT: Appeal Court Motion on Anders Brief
)ATE: 10/23/2018 06:07:55 PM
l

***************************** ******************** ****-:<************

* +* + *******************************************************************

UNITED STATES COURT OF APPEALS
FOR THE 5TH DISTRICT

No: 18-60273

JUDY A. HARMON
VS
UNITED STATES OF AMERICA
RESPONSE TO ATTORNEY McCRAY'S ANDERS BRIEF/MOTION TO WITHDRAW AS COUNCIL

TO: MR. LYLE CAYCE

fully engaged on the movants case.
Additionally movant hereby informs the court of the following:
1.
case; failed to consult movant regarding strategy.
2.

Ms McCray failed to identify reversible error in the direct appeal brief.

3. Ms McCray failed to preserve trial errors for the direct appeal.
O

4. I would appreciate an opportunity to present my issues Pro Se to the appeals court.
A

;

WHEREFORE based on
of her duties.

the above, Judy Harmon, movant, urges the court to relieve counsel Kristian McCray

Respectfully suomitted on this 23rd day of October, 2u18.

Judy A. Harmon 17340-042
*

Federal Correctional Institution - Aiicevilie, AL
Satellite Prison Camp (SPC)
P.O.Box 487
Aiicevilie, AL 35442

I
:

Case: 18-60273

Document: 00515073667

Page: 1

Date Filed: 08/13/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-60273

UNITED STATES OF AMERICA,
Plain tiff-Appellee
v.
JUDY HARMON,
Defendant-Appellant

Appeal from the United States District Court
for the Northern District of Mississippi

ORDER:
The attorney appointed to represent Judy Harmon on appeal has filed a
motion to withdraw and briefs that rely on Anders v. California, 386 IJ.S. 738
(1967). Harmon has filed responses.
A review of the record as well as counsel’s briefs and Harmon’s responses
reveals a nonfrivolous issue for appeal regarding the drug quantity for which
Harmon was held accountable.

Specifically, it would not be frivolous to

challenge this finding given the testimony of Gerardo and Abigail Lima
regarding the drug ledgers they kept during the conspiracy, the information
included in the ledgers, and, as Harmon contends in her most recent response,
the district court’s reliance at her sentencing hearing on testimony from the
sentencing hearing of Thomas Scruggs. See United States v. Hearns, 845 F.3d

Case: 18-60273

Document: 00515073667

Page: 2

Date Filed: 08/13/2019

No. 18-60273
641. 650 (5th Cir. 2017); see also United States u. Garcia, 797 F.3d 320. 323-26
(5th Cir. 2015); United States u. Townsend, 55 F.3d 168. 171 (5th Cir. 1995).
Accordingly, counsel’s motion for leave to withdraw is DENIED. See
Anders, 386 TI.S. at 744. Counsel is ORDERED to file a brief on the merits
addressing the issues identified above and any other additional arguments or
issues counsel deems nonfrivolous. The clerk is DIRECTED to establish a
briefing schedule.
/s/ James E. Graves, Jr.
JAMES E. GRAVES, JR.
UNITED STATES CIRCUIT JUDGE

2

Case: 18-60273

Document: 00514637685

Page: 1

Date Filed: 09/10/2018
if
i1

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE
NEW ORLEANS, LA 70130

September 12, 2018

Ms. Kristian Alicia McCray
P.O. Box 1295
Southaven, MS 38671
No. 18-60273

USA v. Judy Harmon
USDC No. 1:16-CR-38-10

Dear Ms. McCray,
Your motion to withdraw as counsel does not contain a certificate
of compliance,
pursuant to Fed.
R.
App.
P.
32(g)(1)
and
27(d) (2) (A) .
You must
email' your
sufficient motion
to:
Allison_Lopez@ca5.uscourts.gov for review within 5 days of this
date.
If the motion is in compliance, you will receive a notice
of docket activity advising you that the sufficient motion has
been filed.
Sincerely,
LYLE W. CAYCE, Clerk
N

nu
By:
Allison G. Lopez, Deputy Clerk
504-310-7702

cc:

Mr. Chad Malcom Doleac

gxhfbW* |
S ’ </■

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-3X0-7700
600 S. MAESTRI PLACE
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

September 27,

2018

Ms. Kristian Alicia McCray
P.O. Box 1295
Southaven, MS 38671
No.

18-60273

USA v. Judy Harmon
USDC No. 1:16-CR-38-10

Dear Ms. McCray,
The
following
pertains
to
your
proposed
electronically filed on September 25, 2018.

sufficient

You
The brief has been deemed insufficient,
following corrections within the next 14 days.

must

brief

make

the

You need to correct or add:
One of the record citations on page 14 is
Record References:
still not in proper format, (Specifically, ROA.18-60273.944-945
To cite to both non-sequential pages and
and 947-950.)
consecutive pages in one cite, for example: ROA.123, 125, 131To cite to both non-sequential pages and consecutive pages
140.
in one cite, the following format should be used: ROA.123, 125,
In your specific example, the word "and" should be
131-140.
replaced with a comma.
Additionally, portions of your brief have been redacted.
If
Redacted briefs may not be filed without leave of the Court,
your original brief should be sealed, you need to file motion to
file it under seal.
Once you have prepared your sufficient brief, you must
Note :
electronically file your 'Proposed Sufficient Brief' by selecting
from the Briefs category the event, Proposed Sufficient Brief, via
Please do not send paper copies of
the electronic filing system.
The
the brief until requested to do so by the clerk's office,
brief is not sufficient until final review by the clerk's office.
If the brief is in compliance, paper copies will be requested and
you will receive a notice of docket activity advising you that the
sufficient brief ■ filing
has
been
accepted
and no
further

1

corrections are necessary.
The certificate of service/proof of
service , on your proposed sufficient brief MUST be dated on the
actual date that service is being made.
Also, if your brief is
sealed, this event automatically seals/restricts any attached
documents, therefore you may still use this event to submit a
sufficient brief.

Sincerely,
LYLE W.

By:
Allison G.Lopez,Deputy Clerk
504-310-7702

cc:

Mr. Chad Malcom Doleac
Ms. Judy'Harmon

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE
NEW ORLEANS, LA 70130

October 10,

2018

Ms. Kristian Alicia McCray
P.O. Box 1295
Southaven, MS 38671

No. 18-60273

USA v. Judy Harmon
USDC No. 1:16-CR-38-10

Dear Ms. McCray,
We have reviewed your electronically filed Anders brief and it is
now sufficient.
You must submit the 7 paper copies of your brief required by 5th
Cir. R. 31.1 within 5 days of the date of this notice pursuant to
5th Cir. ECF Filing Standard E.l.
Failure to timely provide the appropriate number of copies may
result in the dismissal of your appeal pursuant to 5th Cir. R. 42.3.
The paper copies of your brief must not contain a header noting
"RESTRICTED". Therefore, please be sure that you print your paper
copies from this notice of docket activity and not the proposed
sufficient brief filed event so that it will contain the proper
filing header. Alternatively, you may print the sufficient brief
directly from your original file without any header.
Sincerely,
LYLE W. CAYCE, Clerk
\

nu
By:
Allison G. Lopez,
504-310-7702

cc:

Deputy Clerk

Mr. Chad Malcom Doleac
Ms. Judy Harmon

txbjWJ

--.■'I

v&m.

Case: 18-60273
Document: 00514437226 Page: 1 Date Filed: 04/19/2018
Case: l:16-cr-00038-SA-DAS Doc #: 373 Filed: 04/19/18 1 of 4 PagelD #: 2542

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE \V. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE
NEW ORLEANS, LA 70130

April 19, 2018

Ms. Kristian Alicia McCray
Trout Law Firm, P.L.L.C.
2084 Old Taylor Road
Suite 106
Oxford, MS 38655
No. 18-60273

USA v. Judy Harmon
USDC No. 1:16-CR-38-10

Dear Ms. McCray,
We have docketed the appeal and ask you to use the case number
above in future inquiries.
Filings in this court are governed strictly by the Federal Rules
of Appellate Procedure.
We cannot accept motions submitted under
the Federal Rules of Civil Procedure.
We can address only those
documents the court directs you to file, or proper motions filed
in support of the appeal. See Fed. R. App. P. and 5th Cir. R. 27 for
guidance.
Documents not authorized by these rules will not be
acknowledged or acted upon.
You must complete a transcript order form, which can be obtained
from the court's website www.ca5.uscourts.gov.
You are required
to electronically file the form via the 5th Circuit's Electronic
Document Filing System even if the form was filed with the district
court, and make financial arrangements with the court reporter.
When completed, this meets your obligation to order the necessary
portions of the court reporter's transcript, see Fed. R. App. P.
10(b) .
(If you are pro se and unable to afford payment, you must
file a motion with the district court requesting transcript at
government expense, and notify this court.)
We will coordinate
the transcript deadlines with the court reporter.
The court
reporter should contact you directly if an extension of time to
file the transcript is granted. Failure to complete the transcript
order form and make financial arrangements with the court reporter
within 15 days will result in dismissal of the appeal in accordance
with the rules.
We will provide you information about the briefing schedule of
this appeal at a later date,
If a transcript is unnecessary,
please complete the section on the transcript order form to
indicate such and we will start the briefing schedule.
5th Cir. R.

.m

Case: 18-60273 Document: 00514437226 Page: 2 Date Filed: 04/19/2018
Case: l:16-cr-00038-SA-DAS Doc #: 373 Filed: 04/19/18 2 of 4 PagelD #: 2543

31.4 and the Internal_Operating Procedures following rules 27 and
31 state that except in the most extraordinary circumstances, the
maximum extension for filing briefs is 30 days in criminal cases
and 40 days in civil cases.
All counsel who desire to appear in this case must electronically
file a "Form for Appearance of Counsel" naming all parties
represented within 14 days from this date, see Fed. R. App. P. 12(b)
and 5th Cir. R. 12.
This form is available on our website
www.ca5.uscourts.gov.
Failure to electronically file this form
will result in removing your name from our docket, Pro se parties
are not required to file appearance forms.
ATTENTION ATTORNEYS: Attorneys are required to be a member of the
Fifth Circuit Bar and to register for Electronic Case Filing. The
"Application and Oath for Admission" form can be printed or
downloaded from the Fifth Circuit1s website, www.ca5.uscourts.gov.
Information
on
Electronic
Case
Filing
is
available
at
www.ca5.uscourts.gov/cmecf/.
ATTENTION ATTORNEYS:
Direct access to the electronic record on
appeal (EROA) for pending appeals will be enabled by the U S
District Court on a per case basis. Counsel can expect to receive
notice once access to the EROA is available.
Counsel must be
approved for electronic filing and must be listed in the case as
attorney of record before access will be authorized,
Instructions
for accessing and downloading the EROA can be found on our website
at www.ca5.uscourts.gov/attorneys/attorney-forms/eroa_downloads.
Additionally, a link to the instructions will be included in the
notice you receive from the district court.
Sealed documents, except for the
in criminal appeals, will not be
sealed documents will continue to
only upon the filing and granting
court.

presentence investigation report
included in the EROA.
Access to
be provided by the district court
of a motion to view same in this

We recommend that you visit the Fifth Circuit's website,
www.ca5.uscourts.gov and review material that will assist you
during the appeal process.
We especially call to your attention
the Practitioner's Guide and the 5th Circuit Appeal Flow Chart,
located in the Forms, Fees, and Guides tab.
Sealxn Documents
on Appeal:
______________________
__ Our court has a strong presumption
of public access to our court's records, and the court scrutinizes

f

gpsl^dxgfalrn-.• in- parttcutfrity ;:-;thev necessity for .sealinghin. our
court.
Counsel do riot satisfy this burden by' siimply.v::siiM;t3iig-;-that
■^V^|M^§^nating/eourb, sealed the'matter,._as.. the circumstances that '
gtoshtfred seating^ in the originating * court may hayaichariged -or--may '
not apply in an •appellate, proceed!ng.htttt ^s the/tbii^atiBiT of
counsel to. justify a; request to file under "seal, 1‘just as it is.
their obligation to notify the court whenever sealing is no longer
necessary.
An unopposed motion to seal does not obviate a
counsel's obligation to justify the motion toisehii-

Case: 18-60273
Document: 00514437226 Page: 3 Date Filed: 04/19/2018
Case: l:16-cr-00038-SA-DAS Doc #: 373 Filed: 04/19/18 3 of 4 PagelD #: 2544

Sincerely,
LYLE W. CAYCE, Clerk
CL^lIU^
By:
Majella A.Sutton, Deputy Clerk
504-310-7680
cc:
Mr. David Crews
Mr. Chad Malcom Doleac

Case: 18-60273 Document: 00514437226 Page: 4 Date Filed: 04/19/2018
Case: l:16-cr-00038-SA-DAS Doc #: 373 Filed: 04/19/18 4 of 4 PagelD #: 2545

Provided below is the court's official caption. Please review the
parties
listed and advise the court
immediately of any
discrepancies. If you are required to file an appearance form, a
complete list of the parties should be listed on the form exactly
as they are listed on the caption.

Case No. 18-60273

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
JUDY HARMON,
Defendant - Appellant

Case: l:16-cr-00038-SA-DAS Doc #: 369 Filed: 04/09/18 1 of 2 PagelD #: 2364

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF MISSISSIPPI
UNITED STATES OF AMERICA

PLAINTIFF

VS.

CAUSE NO. 1:16-cr-00038-SA-DAS

JUDY HARMON

DEFENDANT

NOTICE OF APPEAL
Notice is hereby given that Judy Harmon, defendant in the above named case, hereby
appeals to the United States Court of Appeals for the Fifth Circuit the judgment of conviction
and sentence entered in this action on the 4th day of April, 2018.
Respectfully submitted, this the 9lh day of April, 2018.

/s/ Kristian A. McCray
%

Kristian A. McCray
Mississippi Bar Number 104280
mskristianm@gmail.com

COUNSEL:
LAW OFFICES OF KRISTIAN A. STEWART, PLLC
Post Office Box 1295
Southaven, Mississippi 38671
Telephone: (901) 305-2536

Case: l:16-cr-00038-SA-DAS Doc #: 369 Filed: 04/09/18 2 of 2 PagelD #: 2365

CERTIFICATE OF SERVICE
COMES NOW the undersigned attorney, Kristian A. McCray, and certifies that she has
this day filed the above and foregoing Notice of Appeal via the ECF system, thereby causing a
copy to be sent via email to the appropriate parties.
This the 9:h day of April, 2018.
/s/ Kristian A. McCray
Kristian A. McCray

Case: l:16-cr-00038-SA-DAS Doc #: 228'Filed: 08/15/17 1 of 1 PageiD #: 572

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF MISSISSIPPI
CRIMINAL MINUTES - GENERAL

Case No. 1:16cr038
Style:

Place Held: Aberdeen, Mississippi

USA V. JUDY HARMON

Date & Time Began:
Date & Time Ended:

8/15/2017, 10:14 A.M.
8/15/2017, 10:24 A.M.
Total Time:

10 mins

PRESENT:

HONORABLE SHARION AYCOCK, JUDGE
Melinda Tucker
Courtroom Deputy

Phyllis McLarty
Court Reporter

Attorney for Government:
Chad Malcom Doleac

PROCEEDINGS:

DOCKET ENTRY:

Attorney(s) for Defendant:
Kristian Alicia McCray

Motion Hearing [221] to Withdraw as Counsel.

Hearing held. Motion denied.

DAVID CREWS, CLERK
By:

Is/ Melinda R. Tucker
Courtroom Deputy

/

f
exhaw*'"

TRULINCS 17940042 - HARMON, JUDY - Unit: ALI-D-D

FROM: 17940042
TO: Mccray, Kristien
SUBJECT: Motion to Withdraw
DATE: 10/25/2019 03:30:36 PM

Ms McCray,
I received the "CRIMINAL MINUTES-GENERAL". I would like to see the ACTUAL MINUTES, what was discussed or your plea
to be released. I would like to see the notes of when you talked to the witness's.
] am putting together a "MOTION" to the courts to define "ASSISTANCE OF COUNSEL" and request the scope of your
'epresentation is to me as the role of attorney.
As I had stated before; I did not receive any documentation from Mr. Cluck and I did not received any documentation from you.
I would appreciate it if you would send me all the documentation that I have requested. I would like to see the information and
ar notes when you spoke to the witness's.
If you are not obligated to supply this can you please tell me who to contact. I am being deprived of the information that I need
:o continue to the next phase of my case.
Thank you,
Judy

l)

.1

APPENDIX C

I

•J

MEMORANDUM FOR ALL FEDERAL PROSECUTORS
FROM: James M. Cole, Deputy Attorney General
SUBJECT: Department Policy on Waivers of Claims of Ineffective Assistance of Counsel..

/v

As we all recognize, the right to effective assistance of counsel is a core value of our Constitution. The Department of Justice
has a strong interest in ensuring that ind ividuals facing criminal charges receive effective assistance of counsel so that our
adversarial system can function fairly, efficiently, and responsibly. Accordingly, in recent years, the Department has made
support of indigent defense a priority. We have worked to ensure that all jurisdictions - federal,state,and local -fulfill their
,obligations-under>,the. Cohsti:,tutipn 'to.provide effective assistance of counsel; especiallydo those^who.-cannot.afford :an attorney.

^Ifd VVhen negotiating a plea agreement, the majority bf^UniteB 'Sfat es Attorney's oflices do not seek a waiver of claims of
ineffective assistance of counsel. This is true even though the federal courts have uniformly held a defendant may generally
waive ineffective assistance claims pertaining to matters other than entry of the plea itself such as claims related to sentencing.

--

&

While the Department is confident that a waiver of a claim of ineffective assistance of counsel is both legal and ethicai, in order
to bring consistency to this practice, and in support of the underlying Sixth Amendment right, we now set forth uniform
Department of Justice policies relating to waivers of claims of ineffective assistance of counsel.
Federal prosecutors should no longer seek in plea agreements to have a defendant waive claims of ineffective assistance of
counsel whether those .claims are made on c-Ollateral attack or, when permitted by circuit law, made on direct appeal. For cases
in which a defendant's ineffective assistance claim would be barred by a previously executed waiver, prosecutors should
decline to enforce the waiver when defense counsel rendered ineffective assistance resulting in prejudice or when the
defendant's, ineffective assistance claim raises a serious debatable issue that a court should resolve.
•Tw'-

..x

,

■

,.

As long as prosecutors exempt ineffective-assistance claims from their waiver provisions, they are free to request waivers of
appeal and of post-conviction remedies lo the full extent
pemlitted by law as a component of plea discussions and agreements.
★★★it*********:**************

I

-,

